HHS/OIG, Audit -"Review of Compliance with Medicare Regulations Related
to the Consolidation of University Hospital and the Medical Center of Louisiana
at New Orleans,"(A-06-02-00012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Compliance with Medicare Regulations Related to the Consolidation
of University Hospital and the Medical Center of Louisiana at New Orleans," (A-06-02-00012)
June 16, 2003
Complete
Text of Report is available in PDF format (662 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of the OIG review of the
consolidation of University Hospital (University) and the Medical Center of
Louisiana at New Orleans (MCLNO).  The objective of the review was to
determine whether Medicares regulations, especially those dealing with a change
of ownership, were adhered to when the hospitals consolidated to form the MCLNO
East and West Campuses.  A consolidation of hospitals is a change of ownership
in Medicare regulations.  These regulations require that Medicare payments
for services to patients, who are discharged after the date of the consolidation,
be made to the legal owner on the date of discharge.  After consolidation,
MCLNO was not only the legal owner, but also the hospital surviving the consolidation.
The
MCLNOs consolidation with University was effective July 1, 1994.  The  Universitys
Medicare provider number was improperly used to submit Medicare claims to
TriSpan for payment after that date.  This, along with other claims
errors, resulted in $1,811,781 of Medicare overpayments.  We recommended
that TriSpan and the hospitals work together to make the required adjustments
to the appropriate Medicare claims and cost reports for the errors identified.  In
their written response to our draft report, TriSpan officials stated that
the recovery related to the consolidation was being pursued.